HHS/OIG, Audit -"Review of Federal Reimbursement for Health Care Coverage Under the State Children's Health Insurance Program and Medicaid Program - Wisconsin Department of Health and Family Services, Madison, Wisconsin,"(A-05-03-00092)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Federal Reimbursement for Health Care Coverage Under the State Children's Health Insurance Program and
Medicaid Program - Wisconsin Department of Health and Family Services, Madison, Wisconsin," (A-05-03-00092)
October 31, 2003
Complete
Text of Report is available in PDF format
(143 KB). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The primary objective of this review was to determine if the Wisconsin Department of Health and Families  (State
Agency) had adequate internal controls to ensure medical services provided and claimed for reimbursement under one program
could not be claimed for Federal financial participation under the other program.  Based on our survey work, we concluded
that the State Agency’s internal controls were adequate to ensure appropriate reporting of expenditures under the State
Children's Health Insurance Program and Medicaid programs.  No evidence of duplicate claims was identified.